HHS/OIG-AUDIT--Policies and Procedures for Medical Personnel Credentialing and Privileging at IHS, NIH, and HRSA (A-15-94-00006)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Policies and Procedures for Medical Personnel Credentialing
and Privileging at the Indian Health Service, National Institutes of Health,
and Health Resources and Services Administration," (A-15-94-00006)
December 16, 1996
Complete Text of Report is available in PDF format
(1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of an Office of Inspector General (OIG) review
of policies and procedures for medical personnel credentialing and privileging
in the Indian Health Service (IHS), National Institutes of Health (NIH), and
Health Resources and Services Administration (HRSA).
The objectives of our review were to assess the adequacy of Federal policies
and procedures for credentialing and privileging:
in IHS and NIH direct care facilities; and
in nonfederally operated, community-based programs that receive funding
through contracts and grants with IHS and HRSA.
The credentialing and privileging policies used by facilities operated directly
by IHS and NIH are adequate, but Federal credentialing and privileging requirements
for nonfederally operated IHS and HRSA funded community-based programs need
to be strengthened.
Finding 1
The credentialing and privileging policy prescribed by the Public Health
Service Interagency Advisory Council on Quality Assurance and Risk Management
(Interagency Council) compares favorably with other governmental policies
and professional literature publications. Further, both IHS and NIH have credentialing
requirements that meet or exceed the minimum level established by the interagency
policy.
Finding 2
In contrast, nonfederally operated, tribal health care programs funded by
IHS are not required to follow IHS' credentialing and privileging policies.
In addition, HRSA provides its grantees limited policy instructions on appropriate
credentialing and privileging steps. Without adequate credentialing and privileging
policies, the Federal Government risks increased liability for acts of malpractice
that occur in these programs. Therefore, it is incumbent upon IHS and HRSA
to encourage their fi-mded programs to adhere to stringent credentialing and
privileging requirements.
Finding 3
The IHS and HRSA are also not required to determine whether providers they
hire are excluded from being reimbursed by the Federal Medicare and State
Medicaid programs. By not conducting a search of the exclusion list, IHS and
HRSA run the risk of employing health care professionals who have been convicted
of crimes relating to ethical or professional wrongdoing.
To strengthen requirements and provide more specific guidance on credentialing
and privileging to community-based programs receiving Federal funding, we recommend
that:
the Director of IHS advocate programs for quality and risk management, specifically
those related to credentialing and privileging of medical personnel in self-determination
tribal health care programs;
the Administrator of HRSA disseminate detailed information on the operation
of a comprehensive credentialing and privileging program to community, migrant,
homeless, and public housing health center grantees;
the IHS and HRSA modify their employment or credentialing policies and practices
to require, as a routine procedure, a search of the Department of Health and
Human Services (HHS) OIG Medicare and Medicaid exclusion list; and
the Interagency Council revise its credentialing policy to require a search
of HHS' OIG Medicare and Medicaid exclusion list.
In responding to our draft report, IHS, HRSA, and NIH concurred with our findings
and recommendations.